          Office of Inspector General
          Report of Audit




              SUPERFUND


Brownfields: Potential for Urban Revitalization
              E1SHF8-11-0005-8100091
                 March, 27, 1998
Inspector General Division(s)   Headquarters Audit Division
 Conducting the Audit           Washington, DC
Region(s) covered               1, 3, 4, 6, 9
Program Office(s) Involved      Office of Solid Waste and Emergency Response
MEMORANDUM
SUBJECT:       Brownfields: Potential for Urban Revitalization
               Audit Report No. E1SHF8-11-0005-8100091
FROM:          Elissa R. Karpf
               Deputy Assistant Inspector General
                  for External Audits


TO:            Timothy Fields Jr.
               Acting Assistant Administrator
                 for Solid Waste and Emergency Response


        Attached is our final report entitled, “Brownfields: Potential for Urban Revitalization.”
A draft of this report was issued to you on February 20, 1998, and comments were received from
your office on March 17, 1998. The comments provided describe the specific actions along with
the milestone dates for completion in accordance with EPA Order 2750. Therefore, we are
closing this report in our Prime Audit Tracking System upon issuance.

        This report describes findings and corrective actions the Office of Inspector General
recommends to help improve and strengthen the Brownfields program. As such, it represents the
opinion of the OIG. Final determinations on matters in the report will be made by EPA managers
in accordance with established EPA audit resolution procedures. Accordingly, the findings
described in this report do not necessarily represent the final EPA position and are not binding
upon EPA in any enforcement proceedings brought by EPA or the Department of Justice.

       Again, we would like to express our appreciation for the cooperation and helpful insight
provided by your Outreach and Special Projects Staff as well as regional staff during our review.
Should your staff have any questions, please have them contact Norman E. Roth, Divisional
Inspector General for Audit, Headquarters Audit Division on (202) 260-5113.

Attachment
Report No. 8100091
                     EXECUTIVE SUMMARY


PURPOSE
       To help the nation address environmental concerns associated with idled, underutilized or
abandoned urban industrial and commercial properties, EPA announced the Brownfields
Economic Redevelopment Initiative (Initiative). The overall purpose of the Initiative is to help
put urban Brownfield facilities back to sustainable and beneficial reuse.

        Using information gathered in the survey phase of this audit, along with input from the
Outreach and Special Projects Staff (OSPS), and a written request from the Acting Assistant
Administrator for Solid Waste and Emergency Response, we developed the following audit
objectives: 1) determine whether pilot funds were used for activities authorized under CERCLA
§104; 2) determine whether pilot funds have impacted Brownfields redevelopment;
3) determine whether EPA quality assurance requirements were adhered to; and 4) determine
whether the terms and conditions governing the revolving loan fund will permit its effective use.




RESULTS IN BRIEF
         Overall, the Initiative has generated considerable attention from cities, states, tribes, other
federal agencies, and congressional leaders. EPA has awarded 121 site assessment and 24
revolving loan fund grants to cities and states. EPA has been instrumental in bringing together
numerous federal agencies to work cooperatively toward removing barriers to the redevelopment
of Brownfields. Our review also showed that cities have been able to leverage millions in private
Brownfields investment. The number of Brownfield assessment demonstration pilots as well as
the Initiative’s budget has grown steadily. Within the next three years, EPA plans to fund a total
of 300 assessment demonstration projects. The Agency has accomplished a great deal in a
relatively short time. Our report identifies actions the Agency can take to strengthen the Initiative
and continue to move the program forward.




                                                   i                                 Report No. 8100091
A Better Focus Could Lead to More Successful Pilot Projects

        The five cities that we visited were using EPA funds to conduct site assessments, develop
inventories, conduct community involvement activities, and develop Brownfield work groups and
forums. While these activities are authorized under CERCLA §104, we found that some have had
relatively little impact on actual redevelopment. We believe there is a need for the Agency to
improve the focus of future pilots as well as a need to assist cities in developing technical
expertise to continue the Brownfields program after pilot funds have been expended. Maintaining
the Brownfields momentum and leveraging private Brownfield investments require successful
redevelopments. Because success breeds success, EPA should encourage cities to focus their
efforts on those activities which have the greatest potential for promoting rapid site
redevelopment. This could be achieved by revising EPA’s evaluation criteria used for the
selection of pilot projects to focus on those activities designed to bring about timely
redevelopment.

Quality Assurance at Brownfield Sites

        Because the underlying goal of the Brownfields Initiative is to see facilities put back to
sustainable and beneficial reuse, cleanup must be sufficient to protect the health and safety of
those that will be occupying the former industrial property. To ensure that environmental data
collected as part of a site assessment is of a known quality and that decisions made as a result of
the data collected are defendable, EPA developed a planning tool known as the Quality Assurance
Project Plan (QAPP). Two cities in our sample did not develop site-specific QAPPs as required
by the National Contingency Plan and Agency policy. Uncertainties as to the amount of quality
assurance needed for Brownfield sites led the Agency to form a work group to address this issue.
The work group has drafted a Quality Assurance (QA) guidance document for Brownfield site
assessments and plans on finalizing it during fiscal year 1998.

Brownfields Cleanup Revolving Loan Fund

        City officials indicated that many of the sites that have the greatest potential for
redevelopment may not be redeveloped due to the restrictions placed on the use of the funds by
CERCLA and the requirements of the National Contingency Plan. Most notably, recipients
pointed to the restrictions CERCLA places on using funds to cleanup asbestos, lead based paint,
and petroleum. These restrictions, rather than the administrative terms and conditions of EPA’s
grants, may limit the usefulness of the revolving loan funds.




                                                 ii                              Report No. 8100091
RECOMMENDATIONS
We recommend that the Acting Assistant Administrator for Solid Waste and Emergency
Response:

<      Revise EPA’s proposal evaluation and ranking criteria to give credit and higher ranking to
       those cities whose work plan: identifies sites; proposes to conduct site assessments;
       contains the largest number of components of a successful redevelopment effort; contains
       specific objectives and milestones; and contains in-house technical expertise or a
       commitment from the city to obtain or develop technical expertise.

<      Remind project officers and assistance recipients of the need for EPA-approved QAPPs
       prior to beginning field work.

<      Issue the Brownfields QA guidance to the regional offices and provide copies of the
       guidance to current and future pilot recipients.

<      Explore legislative and regulatory alternatives to help cities address the restrictions and
       requirements placed on the Revolving Loan Fund by CERCLA and the National
       Contingency Plan.

Agency Response & OIG Evaluation:

        The Office of Solid Waste and Emergency Response agreed with each of the
recommendations in the draft report and provided planned corrective actions as well as milestone
dates for completion. The specific corrective actions planned are included after each chapters’s
recommendations and the response is included in its entirety as Appendix A.

        We believe the corrective actions underway and planned by the Agency address the
report’s recommendations, therefore, we are closing this report upon issuance. No further
response by the Agency is necessary.




                                                 iii                               Report No. 8100091
Report No. 8100091
                               TABLE OF CONTENTS

                                                                                                                                     Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

CHAPTERS

CHAPTER 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
       Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
       Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
       Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

CHAPTER 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

Impact of EPA Grant Funds and Future Concerns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
       Pilot Funds Were Generally Spent for CERCLA Activities . . . . . . . . . . . . . . . . . . . . . . . 5
       A Better Focus Could Lead to More Successful Pilot Projects . . . . . . . . . . . . . . . . . . . . 7
       Helping Cities Develop Technical Expertise . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
       Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

CHAPTER 3 Quality Assurance at Brownfield Sites . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         15
     Quality Assurance Project Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                15
     Quality Assurance Guidance for Brownfield Sites . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          16
     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            17

CHAPTER 4 The Brownfields Cleanup Revolving Loan Fund . . . . . . . . . . . . . . . . . . . . . . . . . 19
     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

APPENDIX A Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

APPENDIX B Distribution of Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

APPENDIX C Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31




                                                                                                                   Report No. 8100091
Report No. 8100091
          CHAPTER 1
                 Introduction



Purpose           To help the nation address environmental concerns
          associated with the redevelopment and reuse of industrial and
          commercial properties, EPA announced the Brownfields Economic
          Redevelopment Initiative. EPA defines Brownfields as abandoned,
          idled or underutilized industrial and commercial facilities where
          expansion or redevelopment is complicated by real or perceived
          environmental contamination. EPA’s Brownfields Initiative is
          designed to empower states, local governments, tribes,
          communities and other stakeholders to work together in a timely
          manner to prevent, assess, safely cleanup, and sustainably reuse
          Brownfields.

                 Using information gathered in the survey phase of this audit,
          along with input from the Outreach and Special Projects Staff
          (OSPS), and a written request from the Acting Assistant
          Administrator for the Office of Solid Waste and Emergency
          Response (OSWER), we developed the following audit objectives:

                 1)      determine whether pilot funds were used for
                         activities authorized under CERCLA §104;

                 2)      determine whether pilot funds have impacted
                         Brownfields redevelopment;

                 3)      determine whether EPA quality
                         assurance requirements were adhered
                         to; and

                 4)      determine whether the terms and conditions
                         governing the revolving loan fund will permit
                         its effective use.




                        1                               Report No. 8100091
                     CERCLA §104(a) gives EPA broad authority to take
Background
             response action to address releases and threatened releases of
             hazardous substances, pollutants, and contaminants. CERCLA
             §104(b) authorizes EPA to undertake a variety of studies and
             investigations, including monitoring, surveys, testing, planning and
             information gathering in connection with response actions taken
             under CERCLA §104(a). As specified in CERCLA §104(a), these
             response activities must be undertaken by EPA consistent with the
             National Contingency Plan (NCP) and may be taken at sites at
             which a release or threatened release occurred, regardless of
             whether those sites are listed on the National Priority List (NPL).
             EPA’s Office of General Counsel (OGC) has determined that EPA
             may address Brownfields using CERCLA §104 authorities and fund
             Brownfield activities by the authority granted under §111 (a)(1) of
             CERCLA.

                     EPA’s efforts under the Brownfields Initiative can be
             grouped into four broad and overlapping categories: 1) providing
             grants1 for Brownfield pilot projects; 2) clarifying liability and
             cleanup issues; 3) building partnership and outreach among federal
             agencies, states, municipalities and communities; and 4) fostering
             local job development and training initiatives.

                      Brownfield pilot projects are divided into two categories, 1)
             Brownfield assessment demonstration pilots, and 2) Brownfields
             cleanup Revolving Loan Fund (RLF) pilots. Both types of pilot
             activities are funded via a grant between EPA and a state, city, or
             county. (Most Brownfield pilot projects have been awarded to
             cities.) Assessment pilots are funded up to $200,000 each and were
             designed to assist with environmental activities preliminary to
             cleanup, such as site identification, site assessment, site
             characterization and cleanup planning and design. The RLF pilots,
             each funded up to $350,000, provide funds from which low interest
             rate loans can be made for the cleanup of Brownfield sites. The
             fund is replenished through repayment of principal and interest, so
             that future loans can be made for cleanup activities.




                     1
                      We use the term synonymously with cooperative agreement
             throughout this report.

                            2                                  Report No. 8100091
                                To receive an assessment grant, an applicant must go
                        through a competitive award process administered by EPA. EPA
                        has set up panels consisting of personnel from a number of federal
                        agencies to review each application in accordance with a
                        predetermined set of criteria established by EPA. Final
                        determination for award is made by the OSWER Assistant
                        Administrator. To receive a RLF grant the applicant must have
                        previously been awarded an assessment grant and must submit an
                        application addressing evaluation criteria established by EPA. As of
                        September 1997, a total of 121 assessment pilots and 24 RLF pilots
                        were awarded.

                                 There has not been a precise count of the Brownfield sites in
                        the United States. We have seen estimates from 21,0002 to 400,000
                        sites. The U.S. Conference of Mayors, in their publication, “Impact
                        of Brownfields on U.S. Cities - A 39 City Survey,” gives an
                        indication of why there is such a disparity in the number of sites
                        when they state, “...respondents identified either individual
                        properties and/or sites, many of which contain multiple properties.”
                        With such a variance, determining the costs associated with
                        environmental assessment and cleanup is difficult. The General
                        Accounting Office estimated that the cost of individual site
                        assessment averages between $61,000 and $85,000.3 Using the
                        lowest numbers for both sites and cost, Brownfield site assessment
                        costs could reach into the billions. EPA’s budget for Brownfield
                        activities has increased nine fold over the past three years, rising
                        from $10 million in fiscal year 1996, to $85 million for fiscal year
                        1998.

Scope and Methodology
                                On January 23, 1997, the Office of Inspector General (OIG)
                        began a survey of the Brownfields Initiative to obtain background
                        information and identify areas that would benefit from additional
                        audit work. On April 29, 1997, the Acting Assistant Administrator,
                        OSWER requested that the OIG review five site assessment
                        demonstration pilot projects awarded to cities in EPA Regions 1, 3,
                        4, 6, and 9, to determine if funds were spent for CERCLA §104


                                2
                                 The 21,000 figure represents only 39 cities, therefore the actual
                        number of Brownfield sites may be much higher.

                                3
                                 GAO RCED-96-125. June 17, 1996 - “Superfund: Barriers to
                        Brownfield Redevelopment”

                                         3                                     Report No. 8100091
                       activities. We agreed to incorporate this objective into the audit and
                       use as its sample the five cities named by the Acting Assistant
                       Administrator.

                                To accomplish our objectives we discussed the Initiative with
                       regional Brownfields coordinators, Brownfields project managers,
                       and grants specialists. We reviewed the pilot cities project officer
                       files for each of the five pilot cities, obtained and reviewed financial
                       information from selected pilot cities and discussed the pilot projects
                       with city representatives. We visited the five pilot cities and the
                       Brownfield sites within those cities. We reviewed quality assurance
                       information for those pilot sites where EPA funds were used to
                       conduct site assessments. We reviewed OGC legal opinions with
                       respect to EPA’s authority to conduct Brownfields activities. We
                       compared EPA’s pilots with a similar state program.

                               We reviewed the Outreach and Special Projects Staff (OSPS)
                       1996 Federal Managers’ Financial Integrity Act assurance letter
                       regarding management controls for the Brownfields Initiative. We
                       also reviewed the OSPS proposal to be included as a demonstration
                       project under the Government Performance and Results Act.

                                Our audit fieldwork was conducted from October 1997,
                       through December 1997. Except as noted below, this review was
                       conducted in accordance with Generally Accepted Government
                       Auditing Standards (Government Auditing Standards, 1994
                       Revision). The five pilot cities selected by OSWER had projects that
                       had been in process for at least two years. We used the same pilots
                       to complete all of our audit objectives. As agreed with Agency
                       management, we did not complete a detailed financial audit of these
                       pilots. Rather, we reviewed the pilot activities to determine if those
                       activities were allowable under CERCLA §104.

                               To determine if the terms and conditions governing the
                       revolving loan fund would permit its effective use, we discussed the
                       fund with EPA and pilot city representatives. Because the RLF pilots
                       had just recently been awarded and no funds had been used, we relied
                       upon the testimonial evidence of the participants to draw our
                       conclusions.

Prior Audit Coverage   No previous OIG reports have been completed on the Brownfields
                       Initiative.



                                       4                                 Report No. 8100091
                                        CHAPTER 2
                 Impact of EPA Grant Funds and Future Concerns



                                               The number of Brownfield assessment demonstration pilots
                                      as well as the Initiative’s budget has grown steadily since the
                                      Initiative began, and the Agency has been able to accomplish a
                                      great deal in a relatively short time. Within the next three years,
                                      EPA plans to reach a total of 300 assessment demonstration pilot
                                      projects and continue efforts to identify mechanisms to fund
                                      cleanups. While the activities that we reviewed were authorized
                                      under CERCLA, we believe there are areas where additional focus
                                      and technical direction could help strengthen the Brownfields
                                      Initiative and continue to move the program forward.


                                                The review of five pilot grants to determine if funds were
Pilot Funds Were
                                      spent for authorized CERCLA §104 activities showed that, with the
Generally Spent for                   exception of activities at one pilot city, funds were used for
CERCLA Activities                     CERCLA activities. The activities performed at each pilot city
                                      varied. For instance, the Region 1 city focused mainly on creating
                                      an inventory of Brownfield sites, while the Region 3 city focused on
                                      site selection and site assessment. The following chart presents the
                                      major activities performed by the five pilot cities in our sample.

   Region             Major Activities Funded by EPA                 Activities authorized under CERCLA

     1      - Identification of sites                                                 Yes
            - Development of a Geographic Information System of
            sites

     3      - Identification of Brownfield sites and site            Yes, however two sites did not meet the
            assessments                                                      Brownfield Definition

     4      - Identification and inventory of potential Brownfield                    Yes
            sites

     6      - Identification of sites, site assessments                               Yes
            - Funding an EPA employee
              under an IPA

     9      - Conducted community involvement activities and                          Yes
            developed an Environmental Oversight Authority


                                                          5                            Report No. 8100091
         Because CERCLA §104 is so broad, all of the activities
performed under the various pilots were authorized. However,
while site assessments are allowable under CERCLA, we found that
EPA funds were used on two sites in Region 3 that did not qualify
as Brownfields. (i.e., “abandoned, idled or underutilized industrial
and commercial facilities.”) At these two sites (totaling nearly 90
acres) there were no facilities and no evidence of prior
development, nor did it appear that there had ever been any. In
fact, the sites consisted mainly of trees.

        The phase 1 site assessment report for one of the two sites
in question stated, “the site has been mostly wooded and no
structures have been present on the site since at least 1922.”
According to city officials, this property was the largest contiguous
property (60+ acres) within the city limits with development
potential. From the documentation we obtained from the city files
it seems clear that the city fully intended to develop this site for
industrial use. In 1994, before EPA’s grant was awarded, the city
paid an engineering contractor to review the site for development
potential. According to city records, the engineering firm reported
that the site “is primarily thick woods” and that “these woods are
primarily mixed deciduous trees with heavy undergrowth. Clearing
operations should include consideration to sell wood to interested
parties.” Such comments clearly indicate that the property was not
previously used for commercial and industrial practices.

        The approved work plan for this city, as well as others, did
not identify specific sites to be assessed at the time the city was
awarded the grant. The OSPS Director told us that not all
approved work plans have identified the specific sites for
assessments. Therefore, it is not possible to ensure that sites meet
the definition of a Brownfield at the time of award. When we
discussed the above situation with her, she agreed that it would be
beneficial for the project officers to receive and review additional
site-specific information once the city had chosen sites for
assessment. The project officer would then be able to determine
whether the site meets the definition of a Brownfield before the city
spends EPA funds on it.




              6                                 Report No. 8100091
A Better Focus Could
Lead to More                     CERCLA provides EPA with broad authority to conduct a
                       wide variety of actions under the Brownfields Initiative. The
Successful Pilot
                       “Application Guidelines for Brownfield Assessment Pilots” state
Projects               that pilot projects are to focus on EPA’s primary mission of
                       protecting human health and the environment. Assessment pilots
                       were instituted to fund those activities preliminary to site cleanup,
                       primarily site assessments and other assessment-related activities.
                       Pilot cities we visited have engaged in numerous activities including
                       conducting site assessments, funding community involvement
                       activities, developing inventories, conducting Brownfield forums
                       and work groups, and developing creative financing solutions for
                       Brownfield problems, to name but a few. While EPA has
                       determined that these individual activities are authorized under
                       CERCLA, we found that in some cases they have had little impact
                       on actual redevelopment of Brownfield pilot sites.

                               In Region 9, EPA funds were used to conduct community
                       involvement activities at two state superfund sites. These sites
                       encompass nearly 350 acres, have viable responsible parties and are
                       under state superfund enforcement orders for conducting the
                       cleanup. EPA pilot funds were used, in part, to pay for a technical
                       consultant to develop a land use plan with the responsible party and
                       to participate in community meetings regarding the sites. While
                       EPA approved these activities, city officials estimate that the
                       cleanup and redevelopment efforts at one of these sites will not be
                       completed for about 50 years. Given these time frames, the actual
                       impact of EPA’s grant funds may not be known for quite some
                       time. City officials we spoke with stated that they have identified
                       other sites that have redevelopment potential, however, they need
                       additional funding to conduct site assessments at these sites. They
                       also told us that while the funding has helped at the two large sites,
                       they believe it could have had more impact had they focused on
                       smaller, less complex sites.

                               In Region 1 we found that the city spent approximately
                       $180,000 of its $200,000 EPA grant to hire a contractor to develop
                       an inventory and Geographic Information System of potential
                       Brownfield sites. Once the inventory was completed however,
                       there was no one on the city staff to maintain and update the
                       system. (The city’s contractor estimated that keeping the system
                       current would cost approximately $25,000 per year.) Moreover,
                       according to city officials, the six sites that the automated system


                                      7                                Report No. 8100091
identified as having the greatest potential for development were
already known by the city staff. EPA staff and the city project
manager both came away with the same “lessons learned.” They
stated that in retrospect they would rather have spent less on
developing the inventory and more on completing site assessments.

        Another reason why the impact of EPA’s grant money is
not more readily apparent is that some pilot projects are not clearly
focused from the outset. The city’s submitted proposal, which is
the basis for the EPA-approved work plan, is sometimes very
general--speaking more to the goals of the Brownfield program,
rather than addressing the city’s specific needs. Therefore, work
plans do not always contain well defined project objectives and
milestones for completion. We found this to be the case especially
when the pilot grant was awarded before specific sites had been
identified. While not a mandatory factor in awarding a pilot grant,
having cities present, in their proposal, potential Brownfield sites
they intend to pursue, may provide a clearer link to the activities
that need to be performed under the pilot.

        Pilot participants told us that getting a clear focus on what
to do and how to do it has taken longer than they originally
envisioned. As a result, every pilot was extended beyond the two
year time frame and approximately three years later, many of the
pilots have not used the funds awarded.

        A need for better focus was also reflected in the quarterly
reports. Information contained in the reports was often interwoven
with other Brownfield-related activities the city was performing,
making it difficult to determine what activities were being funded
by EPA and whether those activities were within the scope of the
grant. Quarterly progress reports could be streamlined if they were
to address only those activities funded through the grant. If more
specificity were required in a city’s work plan, reports could be
further simplified by having the city address the objectives and
milestones accomplished during the reporting period.

        There are three basic components to a successful and rapid
redevelopment effort--a prospective developer, an owner willing or
anxious to sell, and a city committed to making it happen.
Theoretically, the award of the Brownfield grant is indicative that
the third component is in place. In fact, all of the cities we visited
were aggressively pursuing urban redevelopment. However, some


               8                                 Report No. 8100091
pilot projects were undertaken when one or both of the other two
components were absent. One pilot city used the bulk of its EPA
funds on a site which had neither a prospective developer nor an
eager seller. We later found that this site had previously been
turned down by a state program, similar to EPA’s Brownfield
Initiative, because they did not have an interested developer.

        We do not intend to imply that each site must have a formal
agreement for transfer of the property, rather we believe that EPA
funds should be directed to those sites where there is the greatest
potential for successful redevelopment. This type of focus would
favor a commitment or at least an expressed interest from a
potential developer. A similar approach is currently being applied
by EPA regional offices in determining whether to fund
Brownfields targeted site assessments. In addition to EPA’s
Brownfields pilot assessments, EPA regional offices also have
funding for conducting their own targeted site assessments at
Brownfield sites. We found that regional Brownfields coordinators
developed a list of criteria for prioritizing and performing these
assessments. One of the criteria for using these funds is whether
there is a commitment in place for the cleanup and redevelopment
of the site. We believe similar criteria in the pilot application
guidance would result in EPA selecting future pilots which have the
greatest potential for rapid success.

         Maintaining the Brownfields momentum and leveraging
private Brownfield investments require successful redevelopments.
While the enthusiasm for EPA’s Brownfields Initiative was readily
apparent in all of the cities we visited, the impact of EPA’s grant
funds on redevelopment was less evident. Of the $1 million
awarded for the five site assessment pilot projects we visited, less
than $150,000 was spent on actual site assessments. If we exclude
from this figure the funds used on sites not meeting the definition of
a Brownfield, only $65,000 has been spent on actual site
assessments. Without site assessments, properties will not be ready
for cleanup (if necessary) and reach the ultimate goal of productive
reuse. Because success breeds success, EPA should encourage
cities (through the grant award process) to focus their efforts on
those activities which have the greatest potential for promoting
rapid site redevelopment.




              9                                 Report No. 8100091
                                 From discussions with pilot participants and EPA officials,
Helping Cities Develop
                         as well as reviewing the pilot projects, it became clear that for cities
Technical Expertise      to continue conducting Brownfields activities beyond EPA funded
                         pilot projects, they need to develop the necessary technical
                         expertise and find additional funding sources. City representatives
                         and several EPA officials stated that experience with the pilot
                         projects has shown a need to have in-house technical expertise
                         available or have a city committed to developing it.

                                  The pilot projects which we reviewed were managed by the
                         city’s economic development department or similar office. While
                         this is an appropriate office, Brownfield redevelopment projects
                         require experience in a number of different fields including
                         environmental, legal, financial, city planning and design among
                         others. While the cities we visited had the legal, financial, and city
                         planning expertise, some did not have staff with background in
                         environmental issues, a key component in Brownfields
                         redevelopment. As a result they relied upon EPA or state
                         environmental offices for assistance. In two of the cities we visited,
                         EPA provided employees using Intergovernmental Personnel Act
                         (IPA) assignments. According to city officials we spoke with, these
                         employees were instrumental in the success of the pilot projects.
                         The main reason given was their familiarity with environmental
                         cleanup issues and knowledge of EPA processes. In other cities
                         where EPA employees were not available, cities tended to rely
                         heavily on contract support, or support from EPA labs or state
                         environmental agencies.

                                  In Region 6, EPA provided an experienced manager to the
                         city to help get the pilot started. According to city officials, once
                         the city realized the potential benefits of the program, they invested
                         in it by providing funding and technical staff to keep the program
                         moving forward. When we spoke with city officials in December
                         1997, they told us that additional funding for conducting cleanup
                         activities had been provided by the city for the program and they
                         believe the program will continue to grow. City officials estimated
                         that approximately $53 million in Brownfields investment had been
                         leveraged and an estimated 984 jobs were either retained or were
                         being created as a result of the city’s Brownfield program.

                                 In contrast, at two of the pilot cities we visited, the cities
                         relied heavily on EPA funding and contract support to conduct


                                        10                                  Report No. 8100091
              Brownfield activities. While these cities were able to conduct a
              limited number of site assessments and develop an inventory of
              potential Brownfield sites, they will need to seek additional funding
              assistance to maintain the program once the EPA funding is
              expended. Moreover, because these cities did not have technical
              staff, most of the technical decisions were either directed by the
              contract support, or the city turned to EPA for assistance. For
              instance, in one city a contractor was hired to complete the site
              assessments at the selected sites. Once the site assessment reports
              were completed, the city did not have technical staff on hand to
              review them. As a result, they had to request assistance from one
              of EPA’s laboratories to review the results of site assessment and
              suggest alternatives. While such assistance may be possible with a
              limited number of pilots, the number of pilots has been increasing
              each year. Providing such assistance to a large number of pilots
              may not be feasible. Early successes will promote growth of a
              city’s Brownfield program. To sustain this growth, the city will
              need to have ready access to high-caliber environmental expertise.


Conclusions            The five cities that we visited were using EPA funds to
              conduct site assessments, develop inventories, conduct community
              involvement activities, and develop Brownfield work groups and
              forums. While these activities are authorized under CERCLA
              §104, some have had relatively little impact on actual
              redevelopment. We believe there is a need for the Agency to
              provide increased focus to future pilots as well as a need to assist
              cities in developing technical expertise to continue the Brownfields
              program after pilot funds have been expended. Maintaining the
              Brownfields momentum and leveraging private Brownfield
              investments require successful redevelopments. Because success
              breeds success, EPA should encourage cities to focus their efforts
              on those activities which have the greatest potential for promoting
              rapid site redevelopment. This could be achieved by revising
              EPA’s evaluation criteria used for the selection of pilot projects to
              focus on those activities designed to bring about timely
              redevelopment.




                            11                                Report No. 8100091
Recommendations   We recommend that the Acting Assistant Administrator for Solid
                  Waste and Emergency Response:

                         2-1    Revise EPA’s proposal evaluation and ranking
                                criteria to give credit and higher ranking to those
                                cities whose work plan:

                                       a.      identifies sites;

                                       b.      proposes to conduct site assessments;

                                       c.      contains the largest number of
                                               components of a redevelopment
                                               effort;

                                       d.      contains specific objectives and
                                               milestones; and

                                       e.      contains in-house technical
                                               expertise or a commitment for
                                               obtaining or developing
                                               technical expertise.

                         2-2    Develop special grant conditions
                                which require recipients to:

                                       a.      Submit site-specific information to
                                               the EPA project officer when sites
                                               have not been identified in the
                                               approved work plan. Require the
                                               EPA project officer to review this
                                               information to determine that the site
                                               meets the definition of a Brownfield.
                                               Require the EPA project officer’s
                                               approval of the site before the city is
                                               authorized to spend EPA assessment
                                               funds on it.

                                       b.      Clearly delineate in quarterly reports
                                               those activities which were
                                               undertaken with EPA funds during
                                               the reporting period.


                               12                                  Report No. 8100091
                    Recommendation 2-1
Agency Response
                           The Agency agreed to revise the pilot application criteria to
                    include all of the elements mentioned. This action is scheduled to
                    be completed for the Fiscal Year 1999, pilot application review
                    process.

                    Recommendation 2.2

                            OSWER agreed to work with EPA’s Grants Administration
                    Division and OGC to develop terms and conditions for selection of
                    future pilot sites. These terms and conditions will be incorporated
                    into pilot workplans and will be developed in time for the Fiscal
                    Year 1999 application review process. OSWER also agreed to
                    direct project officers to clarify with grant recipients the need to
                    clearly delineate in quarterly reports those activities undertaken
                    with EPA funds. This activity will be completed by May 31, 1998.


OIG Evaluation of         The proposed corrective actions will address the
Agency Response     recommendations and no further action is required.




                                  13                               Report No. 8100091
(This page intentionally left blank)




                14                     Report No. 8100091
                           CHAPTER 3
                    Quality Assurance at Brownfield Sites



Quality Assurance                  We found that two cities in our sample did not develop site-
Project Plans              specific Quality Assurance Project Plans (QAPPs), as required by
                           the National Contingency Plan and Agency policy. As a result, the
                           reuse decisions made regarding these sites may not be based on
                           data of known quality.

                                    Unlike NPL sites which are cleaned up but not always
                           reused, the underlying goal of the Brownfields Initiative is to have
                           facilities put back into sustainable or beneficial reuse in a timely
                           manner. Cleanup, therefore, must be sufficient to protect the health
                           and safety of those that will be occupying the former industrial
                           property. To ensure that environmental data collected as part of
                           the Brownfield site assessments is of a known quality and that
                           decisions made as a result of the data collected are defendable, EPA
                           developed a planning tool known as the Quality Assurance Project
                           Plan. The purpose of the QAPP is to document planning results for
                           environmental data collection and to provide a project specific
                           “blueprint” for obtaining the type, quality, and quantity of
                           environmental data needed for decision making regarding cleanup.

                                   In Region 3, we found that EPA funds were used to pay for
                           a Phase II assessment which included environmental sampling.
                           However, a QAPP was not developed for these sampling activities.
                           In discussions with the Brownfields project manager, he stated that
                           he was not aware that a QAPP was required. Similarly, city
                           officials were not aware that a QAPP was required for the site.
                           However, the terms and conditions of the grant clearly stated that a
                           QAPP was required before any field work was initiated.

                                  In Region 4, we found that a QAPP was developed but
                           contained no site-specific information. Rather it was developed as
                           a generic quality assurance plan. When the document was
                           forwarded to the Region 4 Office of Quality Assurance for review,
                           there were numerous comments regarding the adequacy of the plan.
                           The QA office comments stated that “the QAPP provided for
                           review followed the format established by EPA for QAPPs.

                                        15                                Report No. 8100091
                    However since it is not [site specific], the QAPP contains no
                    details on data quality objectives.” The comments also stated that
                    the QAPP did not contain a sampling and analysis plan. The
                    sampling and analysis plan takes the data quality objectives and
                    formulates them into a specific design that shows where, what type,
                    how, and how many samples are to be taken as well as how they
                    should be stored, transported, and what analytical methods should
                    be used for analysis. The QA office requested that the QAPP be
                    reconciled to address the inadequacies. However, Region 4
                    officials did not require the city to revise the plan. Nevertheless,
                    sampling and analysis took place on the site, removal activities
                    occurred, and the site is currently occupied by the prospective
                    owner.


                            During our review we discussed the quality assurance
Quality Assurance
                    concerns with the Outreach and Special Projects Director, the
Guidance for        Office of Research and Development’s Quality Assurance Division,
Brownfield Sites    as well as EPA Brownfields project managers. We found that, in
                    general, there were uncertainties about the amount of quality
                    assurance needed for Brownfields field work activities. These
                    uncertainties centered around the need versus the cost of quality
                    assurance. As a result, a Brownfields Quality Assurance work
                    group was established to research what QA requirements were
                    necessary for Brownfields projects.

                            In January 1998, we met with the work group leader to
                    discuss what had transpired since the group was formed and what
                    had resulted. The work group was comprised of both regional and
                    Headquarters staff from OSWER, the Office of Research and
                    Development and regional quality assurance specialists. According
                    to the work group leader, there were and continues to be
                    differences of opinion as to what level of QA is required by the
                    different parties. However, he also stated that work group
                    members realize that QA is an important part of the decision-
                    making process. The work group has drafted a guidance document
                    on quality assurance requirements for conducting Brownfield
                    assessments, which tries to balance the need for quality data with
                    the limitations on funding for Brownfields assessments. The
                    document is slated to be finalized during fiscal year 1998.




                                 16                                Report No. 8100091
                    3-1    We recommend that the Acting Assistant Administrator for
Recommendations
                           Solid Waste and Emergency Response:

                                   •       Remind project officers and
                                           assistance recipients of the
                                           need for EPA-approved
                                           QAPPs prior to conducting
                                           field work.

                                   •       Issue the Brownfields QA
                                           guidance to the regional
                                           offices and provide copies of
                                           the guidance to current and
                                           future pilot recipients.


Agency Response              The Acting Assistant Administrator agreed to issue a
                    memorandum to all Brownfield pilot project officers which will
                    emphasize that when pilot funds will be used to conduct
                    environmental sampling activities, recipients should have an EPA-
                    approved site specific sampling and analysis plan in place prior to
                    beginning fieldwork. The Acting Assistant Administrator also
                    agreed to issue the Brownfields Quality Assurance Guidance to the
                    regions and project officers as well as pilot recipients. These
                    activities will be completed by the end of the first quarter of Fiscal
                    Year 1999.


OIG Evaluation of         The proposed corrective actions will address the
                    recommendations and no further action is required.
Agency Response:




                                  17                                Report No. 8100091
(This page intentionally left blank)




                18                     Report No. 8100091
           CHAPTER 4
The Brownfields Cleanup Revolving Loan Fund



                   As a follow-on to the Site Assessment pilots, EPA
          established the Brownfield Cleanup Revolving Loan Fund (RLF)
          pilots. These were initiated to provide cities, states, and Indian
          tribes loan funds to conduct environmental cleanup of Brownfield
          pilot sites. It was originally envisioned that EPA funds would be
          used to capitalize RLFs. The funding in the RLF would then be
          loaned out by pilot cities to interested developers at low interest
          rates for the purpose of site cleanup. The fund would be
          replenished for future loans by the repayment of principal and
          interest on the existing loans. On April 25, 1997, EPA’s Office of
          General Counsel provided the Director, OSPS a legal opinion
          advising OSPS that EPA could legally provide financial assistance
          to capitalize Brownfields revolving loan funds. As of September
          1997, 24 RLF pilot projects have been awarded.

                  We reviewed the terms and conditions governing the
          revolving loan fund to determine if they would permit its effective
          use. Because many of the pilots had either just recently been
          awarded or were still awaiting approval, and because none of the
          pilot funds had been used for cleanup, our review consisted mainly
          of testimonial evidence gathered from EPA officials and pilot
          recipients.

                  Discussions with EPA officials and RLF recipients revealed
          that the terms and conditions, as stated in the assistance agreement,
          governing the revolving loan fund were complex and somewhat
          burdensome, but were feasible. However, both EPA and pilot
          recipients expressed concern regarding the restrictions and
          requirements placed on the use of the fund by CERCLA and the
          National Contingency Plan (NCP). Nearly all RLF recipients and
          several EPA officials we spoke with stressed that the Brownfields
          program should not be tied to CERCLA. They told us that the
          provisions of CERCLA and the NCP are overly restrictive and
          present barriers to effective cleanup of Brownfield sites. For
          instance, many Brownfield sites contain old facilities which often
          contain materials such as asbestos, lead based paint, and many

                        19                                Report No. 8100091
have underground storage tanks. However, because CERCLA
restricts the use of funds to address asbestos, lead based paint and
petroleum products, recipients believe that many potential
Brownfield facilities will not be addressed. Beyond these specific
restrictions, we were also told that the requirements of the NCP,
such as addressing community concerns, holding community
meetings, and setting up and maintaining administrative records
require a great deal of resources to carry out. Because the grants
are set at a total of $350,000 and intended to address multiple sites,
many participants believe that the funding is not sufficient and the
administrative requirements to the lender are burdensome. As a
result, city representatives told us that they did not want to get
involved with the RLF pilots. In fact, in a few instances EPA had
to encourage cities to apply for the pilots.

         Further, as mentioned earlier, because some cities do not
have the technical expertise on environmental programs and
legislation (CERCLA, The Resource Conservation and Recovery
Act, Leaking Underground Storage Tanks) they were not always
familiar with specific provisions and restrictions of the programs,
and some had never managed an environmental cleanup. As a
result, some of the cities did not want the responsibility of
providing oversight for Brownfield cleanup actions.

        We also found, however, that some cities are working on
innovative ways of handling the administrative and legal barriers
which the RLF presents. In Region 4, a RLF recipient is working
with a community development bank, which was established using
funding from the Department of Housing and Urban Development,
to issue and manage low interest rate loans for city development
project funding. The city believes that teaming up with the
community development bank presents a low cost option to
administer and manage the RLF. In Region 6, the success achieved
under the site assessment pilots has allowed the city to leverage
additional funding which can be used to help address those
substances which are restricted under CERCLA. Nevertheless,
even with these innovative approaches, EPA and city officials we
spoke with believe that changes are needed in order to make the
program operate effectively. While they believe that addressing
administrative requirements is feasible, there is continuing concern
regarding the legal restrictions.




              20                                Report No. 8100091
                          During our review, Congress was examining the Agency’s
                  Fiscal Year 1998, budget request. While the Congress provided the
                  Agency with $85 million for Brownfields activities, concerns were
                  expressed regarding the “Agency’s legal authority to utilize
                  Superfund dollars to establish revolving funds which in turn would
                  be used to clean up sites which are neither emergency in nature nor
                  eligible for NPL listing.” As a result, language was added to the
                  appropriation bill prohibiting the use of Superfund dollars for the
                  establishment of Brownfield revolving loan funds unless specifically
                  authorized by future legislation. As a result, EPA has not awarded
                  any further RLF pilots.

                           While there remains uncertainty as to whether there will be
                  future RLF pilots, 24 have been awarded. This presents the
                  Agency with an opportunity to monitor a small number of pilots to
                  test the revolving loan fund methodology and explore alternatives
                  to the restrictions on the use of the funds.


Recommendations   We recommend that the Acting Assistant Administrator for Solid
                  Waste and Emergency Response:

                         4-1.    Explore legislative and regulatory
                                 alternatives to help cities address the
                                 restrictions and requirements placed
                                 on the Revolving Loan Fund by
                                 CERCLA and the National
                                 Contingency Plan.

                         4-2.    Provide RLF cities with training on
                                 the provisions of CERCLA, as they
                                 apply to removal actions.


Agency Response   Recommendation 4-1

                          The Acting Assistant Administrator responded that more
                  detailed legislative language clarifying the appropriateness of using
                  the Superfund for supporting RLFs for cleanup could be helpful.
                  He also stated that the Brownfields program did not exist at the
                  time the 1989 NCP was promulgated and recognized the current
                  version places restrictions on the use of the RLF. He agreed to
                  explore clarification in the form of revisions to the NCP to better


                                21                                 Report No. 8100091
                    support the Brownfields program goals in the context of CERCLA.
                    These activities are scheduled for completion during Fiscal Year
                    1999.

                    Recommendation 4-2

                            The Acting Assistant Administrator responded that on
                    March 10-12, 1998, a Brownfield Coordinators Meeting was held
                    where a draft administrative manual was provided. The manual
                    discusses the provisions of CERCLA relevant to the RLF. The
                    manual will be used to facilitate training of EPA regional staff and
                    assistance recipients. Additionally, he responded that OSWER is
                    working toward contractual support to provide technical assistance.


OIG Evaluation of           We believe the proposed corrective actions will help the
                    Agency address the recommendations. No further corrective
Agency Response
                    actions are required.




                                  22                                Report No. 8100091
                                      APPENDIX A
                                          Agency Response



                                              March 17, 1998



MEMORANDUM

SUBJECT:       OIG Draft Audit Report No. E1SHF8-11-0005
               Brownfields: Potential for Urban Revitalization

FROM:          Timothy Fields, Jr. /s/
               Acting Assistant Administrator

TO:            Elissa R. Karpf
               Deputy Assistant Inspector General for External Audits


        The Office of Solid Waste and Emergency Response (OSWER) has reviewed the subject draft
audit report, and we concur with each of the recommendations stated therein. We are proud of the
accomplishments made by our Outreach and Special Projects Staff (OSPS) and Regional Brownfields
Coordinators working with other EPA offices and our federal, state, and local partners. We agree that the
recommended actions will help to continue moving the Brownfields program forward. Our responses to
specific recommendations, contained in the attachment to this memorandum, indicate our planned
corrective actions and milestone dates for their completion.

         As we take steps to improve the Brownfields program per the findings stated in the report, we
wish to stress the experimental nature of our assessment demonstration pilots. The awards that have been
made in the past five years are intended to foster a climate of change for renewed interest in urban
revitalization and the remediation of environmental contamination. We view these pilots as ‘living,
learning laboratories’ from which we draw lessons that can be applied in the continuing effort to put idled
and abandoned commercial and industrial land into sustainable and beneficial reuse.

       For the most part, the lessons learned from the five cities reviewed in this report, all early pilot
award recipients, have already been incorporated into our current work processes. For example, we
changed from a non-competitive to a competitive selection process as a means of ensuring fairness; we
have revised the pilot selection criteria/guidelines numerous times, as we learned more about just what it is
we hope the pilots will accomplish; and, we learned to emphasize the importance of strong, well-

                                                     23                                Report No. 8100091
negotiated cooperative agreements that clearly identify the type of sites and proposed activities for each
pilot. We will continue to apply the lessons we have learned in our ongoing efforts to make the
Brownfields program as effective as possible.

       Thank you for the opportunity to review and comment on this draft report, and for the cooperation
of your staff throughout the course of this review. If you have any questions, please contact Linda
Garczynski, Director of the Outreach and Special Projects Staff, at 202-260-4039.


Attachment

cc:    Mike Shapiro                                   Dev Barnes
       Linda Garczynski                               Marjorie Buckholtz
       Ann McDonough                                  Andrew Kreider
       Earl Salo                                      Karen Kraus
       Johnsie Webster                                Liz Harris
       Mike Hurd




                                                     24                                Report No. 8100091
    OSWER Response to OIG Draft Report No. E1SHF8-11-0005 - Brownfields: Potential for Urban Revitalization

Recommendation 2.1

C      Revise EPA’s proposal evaluation and ranking criteria to give credit and higher ranking to those cities
       whose work plan:

       a.      identifies sites;
       b.      proposes to conduct site assessments;
       c.      contains the largest number of components of a redevelopment effort;
       d.      contains specific objectives and milestones; and
       e.      contains in-house technical expertise or a commitment for obtaining or
               developing technical expertise.

Response

        In the five years since the first Brownfields pilots were awarded, we have continually updated and
revised our award criteria based on lessons learned from ongoing pilots. The increased sophistication of these
criteria has given priority to applications which indicate understanding and consideration of the many
components necessary for the successful assessment and sustainable reuse of Brownfields sites. Throughout,
we have continued to stress the need for replicability and innovation in the proposals as a means of laying the
foundation for a Brownfields program that can outlive the Federal role.

        Our January, 1998 review of pilot applications emphasized the importance of committing pilot funds
directly to site assessments, and gave credit to those applicants who had already targeted specific geographic
corridors for use of the funds. While we will not require applicants to identify specific sites and will not set
a minimum financial level for funds committed to site assessments, we fully expect these elements to be
appropriately emphasized in future panel reviews.

      Beginning in the summer of fiscal year (FY) 1998, we will revise the pilot application criteria for the
FY1999 application review, giving higher ranking to cities whose proposals include all of the elements
recommended above. These revised criteria will be finalized prior to the first FY1999 review, by 10/31/98.

Recommendation 2.2

•      Develop special grant conditions which require recipients to:

       a.      Submit site-specific information to the EPA project officer when sites have not been
               identified in the approved workplan. Require the EPA project officer to review this
               information to determine that the site meets the definition of a Brownfield. Require the
               EPA project officer’s approval of the site before the city is authorized to spend EPA
               assessment funds on it.



                                                       25                                  Report No. 8100091
    OSWER Response to OIG Draft Report No. E1SHF8-11-0005 - Brownfields: Potential for Urban Revitalization


       b.      Clearly delineate in quarterly reports those activities which were undertaken with EPA
               funds during the reporting period.

Response

        The ‘lag time’ between the announcement of a pilot award and the actual submission of the
recipient’s workplan has traditionally been a critical time for project officers to work closely with pilot
award recipients to ensure that they have considered all necessary elements as they construct their
workplans. It is during this period that specifics are developed and necessary adjustments to the proposed
workplans are made. We will continue to emphasize this time as a crucial opportunity to narrow a pilot’s
focus to a specific site or geographic corridor.

        The draft report states on pages 6 and 7 that two sites in Region 3 did not qualify as Brownfields.
However, while visiting the pilot sites, the project officer viewed an abandoned, unregulated dump and a
number of abandoned drums of questionable content. These observations raised concerns about possible
groundwater and soil contamination. Based on this evidence, he concluded that the site was
environmentally stressed by past activity that may have led to contamination, and therefore met the
definition of a brownfield despite currently consisting mainly of trees.

         We believe that the Region 3 situation is a unique case but we also agree that project officers
should have input into a pilot’s site choice. During FY1998, we will consult with EPA’s Grants
Administration Division (GAD) and the Office of General Counsel (OGC) to develop appropriate terms
and conditions so that EPA project officers review and approve project phases, including selection of pilot
sites, in accordance with the substantial involvement guidance contained in EPA Order 5700.1. These
terms and conditions will be incorporated in the final workplan agreements, and will be crafted in time for
the first FY1999 application review process, by 10/31/98.

        We will also issue a memorandum directing project officers to clarify with recipients that their
quarterly reports should more clearly delineate activities undertaken with EPA funds, and we will work
with them to ensure that these reports reflect appropriate changes. This memorandum will be issued by
5/31/98.


Recommendation 3.1

C      Remind project officers and assistance recipients of the need for EPA-approved QAPPs prior to
       conducting site assessments.

C      Issue the QA guidance to the regional offices and provide copies of the guidance to current and
       future pilot recipients.


                                                       26                                  Report No. 8100091
    OSWER Response to OIG Draft Report No. E1SHF8-11-0005 - Brownfields: Potential for Urban Revitalization


Response

        It is important to note in Chapter 3 of the draft audit report that Subpart O of the Code of Federal
Regulations (CFR) only specifies that an EPA-approved non-site-specific Quality Assurance Project Plan
(QAPP) be in place prior to beginning field work (40 CFR §35.6055(b)(2)(ii)). We understand that a
generic QAPP is generally appropriate when cooperative agreement recipients may be taking the lead on
similar activities at multiple sites and/or conducting minimal sampling activities. If, however, the scope of
an assessment pilot includes more than minimal environmental sampling on a site-specific basis (e.g., pilot
funds used to conduct a Phase I/Phase II-type assessment which includes environmental sampling), we
agree that a site-specific sampling and analysis plan should be in place, and approved by EPA, prior to
such sampling taking place.

        We will issue a memorandum to all Brownfields pilot project officers emphasizing that when pilot
funds will be used to conduct environmental sampling activities, recipients should have an EPA-approved
site-specific sampling and analysis plan in place prior to conducting field work. We will also issue the
Brownfields Quality Assurance Guidance to the regions and project officers and will provide copies to all
current and future pilot award recipients. This memorandum and the Brownfields QA Guidance will be
issued together, by the end of the first quarter of FY1999.


Recommendation 4.1

C      Explore legislative and regulatory alternatives to help cities address the restrictions and
       requirements placed on the Revolving Loan Fund by CERCLA and the National
       Contingency Plan.

Response

       We agree that CERCLA does present challenges that we are continuously addressing. For
example, while CERCLA does limit the use of funds to address asbestos, lead-based paint, and petroleum
products, cities do have alternative sources of funding to address these concerns at
Brownfield sites. EPA recently worked closely with the U.S. Department of Housing and Urban
Development (HUD) to amend the lead abatement grant to include provisions for Brownfields and
Superfund. This source of funding, in addition to the Leaking Underground Storage Tank (LUST) Trust
Fund, is available to cities, who should be encouraged to discuss use of these funds with their state
governments.

        While we do agree that the procedural requirements in the National Contingency Plan (NCP) can
be an obstacle to the use of the Revolving Loan Fund (RLF), we do not think that the legislative and
regulatory authorities are inherently flawed. However, more detailed legislative language clarifying the
appropriateness of using the Superfund for supporting RLFs for cleanup could be helpful. Because the

                                                       27                                  Report No. 8100091
Brownfields program did not exist at the time the 1989 NCP was promulgated, we recognize that the
NCP, as it is currently written, places restrictions on the use of the RLF. We will explore clarification in
the form of revisions to the NCP to better support the Brownfields program goals in the context of
CERCLA. We will undertake and complete this process during FY1999.


Recommendation 4.2

C      Provide RLF cities with training on the provisions of CERCLA, as they apply to removal actions.

Response

        At the Headquarters-Regional Brownfields Coordinators meeting held March 10-12, 1998 in
Washington, DC, we distributed a draft administrative manual that discusses the provisions of CERCLA
relevant to the RLF. The draft manual, which was given to all Regional Brownfields Coordinators, will be
a tool for them to use in facilitating training of Regional staff and assistance recipients. In addition, we are
continuing to work toward securing contractual support to provide technical assistance.




                                                      28                                  Report No. 8100091
                                   APPENDIX B
                                    Distribution of Report



Inspector General
Deputy Inspector General for Audit
Divisional Inspectors General
Assistant Administrator, Office of Solid Waste and Emergency Response
Director, Outreach and Special Projects Staff
Director, Grants Administration Division
Agency Followup Coordinator, Attn: Director, Resource
   Management Division
Audit Coordinators, Regions 1, 3, 4, 6, 9
Audit Coordinator, Office of Solid Waste and Emergency Response
Regional Administrators, Regions 1-10




                                                 29                     Report No. 8100091
(This page intentionally left blank)




                30                     Report No. 8100091
                                  APPENDIX C
                                       Abbreviations



CERCLA   The Comprehensive Environmental Response, Compensation, and Liability Act of 1980,
         as amended by the Superfund Amendments and Reauthorization Act of 1986.

EPA      United States Environmental Protection Agency

NCP      National Oil and Hazardous Substances Pollution Contingency Plan

NPL      National Priority List

OIG      Office of Inspector General

OGC      Office of General Counsel

OSPS     Outreach and Special Projects Staff

OSWER    Office of Solid Waste and Emergency Response

RLF      Brownfields Cleanup Revolving Loan Fund

QA       Quality Assurance

QAPP     Quality Assurance Project Plan




                                               31                           Report No. 8100091
